Austin v. California

Monday, June 14, 2021

Appendix A
Decision of Ninth Circuit Court of Appeals.

Page 32 of 37

Case: 21-15191,05/18/2021, ID: 12116975, DktEntry: 13, Page 1 of 1

FILED

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
GREGORY A. AUSTIN,
Plaintiff-Appellant,
v.

SAN FRANCISCO SUPERIOR COURT; et
al.,

No.

21-15191

MAY 18 2021
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

D.C. No. 3:20-cv-00900-CRB
Northern District of California,
San Francisco
ORDER

Defendants-Appellees.
Before:

PAEZ, CALLAHAN, and MURGUIA, Circuit Judges.

Appellant’s motion for leave to proceed in forma pauperis (Docket Entry
No. 11) is granted.
Insofar as this appeal requires a certificate of appealability (COA), the
request for a COA (Docket Entry No. 8) is denied. See 28 U.S.C. § 2253(c)(2).
Insofar as a COA is not required, a review of the record, the opening brief,
and the response to the February 24, 2021 order to show cause indicates that the
questions raised in this appeal are so insubstantial as not to require further
argument. See United States v. Hooton, 693 F.2d 857, 858 (9th Cir. 1982) (stating
standard).
Accordingly, we summarily affirm the district court’s judgment.
Any remaining motions are denied as moot.
AFFIRMED.

Case: 21-15191, 06/09/2021, ID: 12138507, DktEntry: 14, Page 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
JUN09 2021
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

GREGORY A. AUSTIN,
Plaintiff - Appellant,
v.

SAN FRANCISCO SUPERIOR
COURT; et al.,

No. 21-15191
D.C. No. 3:20-cv-00900-CRB
U.S. District Court for Northern
California, San Francisco
MANDATE

Defendants - Appellees.

The judgment of this Court, entered May 18, 2021, takes effect this date.
This constitutes the formal mandate of this Court issued pursuant to Rule
41(a) of the Federal Rules of Appellate Procedure.
FOR THE COURT:
MOLLY C. DWYER
CLERK OF COURT
By: Nixon Antonio Callejas Morales
Deputy Clerk
Ninth Circuit Rule 27-7

Austin v. California

Monday, June 14, 2021

Appendix B
Decision of United States District Court of Northern California.

Page 33 of 37

I
2
3
4

5

IN THE UNITED STATES DISTRICT COURT

6

FOR THE NORTHERN DISTRICT OF CALIFORNIA

7
8

GREGORY AUSTIN,
Plaintiff

9
10
11
.2
tt 2

ug M
sa
"3
.2 U
H <4-1

co

12

T3

£

11
D o
Z

STATE OF CALIFORNIA, SAN
FRANCISCO SUPERIOR COURT, et al.,
Defendants.
For the reasons explained in the Court’s order dismissing Plaintiff Gregory Austin’s

14
petition with prejudice (dkt 34), the Court hereby enters judgment in favor of all Defendants and
15
against Austin. The clerk is directed to close the case.

« to

*3 5
C/D

JUDGMENT

v.

13

O

5 ts

Case No. 20-cv-00900-CRB

16
IT IS SO ORDERED.
17
Dated: January 6, 2021
18

19
20
21
22
23
24
25
26
27
28

CHARLES R. BREYER

United States District Judge

Austin v. California

Monday, June 14, 2021

Appendix C
Some of the wrongful Federal and State provisions I have suffered resulting from the defendants,
as follows:31
• 18 U.S. Code § 2331 Domestic Terrorism. FBI defines Domestic Terrorism as: Violent,
criminal acts committed by individuals and/or groups to further ideological goals stemming
from domestic influences, such as those of a political, religious, social, racial, or environmental
nature.
• 18 U.S. Code Chapter 77 Peonage, Slavery, and Trafficking in Persons 18 U.S.C. §§ 421-446
(1925). Through “Seek Work Orders,” “Seek higher-paying work orders,” upon threat of
license revocation; through actual revocation of licenses as additional means of torture.
• § 11.401 Recklessly endangering another person, opposed to criminal negligence, since Colfax
had intent to induce my homelessness.
• Title 18 Section 2340A Coercion Torture into compliance with community property edicts.
State license revocation as punishment, and so on.
• Penal Code 487 Grand Theft in California.
• 18 U.S. Code Chapter 115 Treason, Sedition, and Subversive Activities.
• 25 CFR § 11.404 - False imprisonment.
• 18 U.S. Code Chapter 96— Racketeer Influenced and Corrupt Organizations
• Theft by Fraud, Deceit or Trick - California Penal Code 484
• California Penal Code Section 67 PC & California Penal Code Section 68 PC: Bribery Of Or
By An Executive Officer Or Public Employee.
• 18 U.S. Code § 242. Deprivation of rights under color of law.

31 Civil charges are listed on Page 38 of Document 31 of Case 3:20-cv-00900-CRB
Page 34 of 37

Austin v. California

Monday, June 14, 2021

• Penal Code 273a PC and 18 U.S. Code § 3283, Child Endangerment. California law defines
child endangerment as willfully exposing a child under 18 to unjustifiable pain, suffering, or
danger. A person can be charged for subjecting the child to an unreasonable risk of harm, even
if the risk never comes to fruition. No statute of limitations that would otherwise preclude
prosecution for an offense involving the sexual or physical abuse, or kidnaping, of a child
under the age of 18 years shall preclude such prosecution during the life of the child, or for ten
years after the offense, whichever is longer.
• California Penal Code Section 206 PC and Section 2340A of Title 18, United States Code.
Torture, involves intentionally inflicting great bodily harm on another in order to cause
extreme pain. Torture is a felony-level offense that carries life prison sentences.
• California Penal Code Section 211 PC and 18 U.S. Code CHAPTER 103. Armed Robbery in
the First Degree is defined broadly as a theft using force. Because robbery involves the use of
force or fear, it is considered a serious felony-level offense that can result in substantial prison
sentences.
• California Penal Code Section 182 PC and 18 U.S. Code CHAPTER 19 CONSPIRACY.
U.S. Code § 371, and § 372. Conspiracy. The defendant intentionally entered into an agreement
with another person or persons to commit a crime. The defendant committed an overt act in
furtherance of this agreement.
• California Penal Code Section 148, and 18 U.S.C. § 1503 Obstruction makes it a crime to
delay, resist, or obstruct law enforcement when performing their job duties and doing so
willfully. Additionally, obstruction is to ’’corruptly or by threats or force, or by any threatening
letter or communication, influences, obstructs, or impedes, or endeavors to influence, obstruct,
or impede, the due administration ofjustice."
I further request a concurrent or subsequent civil hearing under this docket to try the defendants
for restitution of their torts, as listed in my previous submissions, if a separate hearing is required
per Civil L.R. 3-2; or similarly to satisfy the enforcement requirements of Fed. R. Crim. P. 6(a).
I also request that $250,000 in Sanctions per 18 U.S. Code § 401, Fed. R. Civ. P. 37, plus
$140,000 for reimbursement of attorney fees (See Marriage of Feldman 153 Cal. App. 4th
1470 {Cal. Ct. App. 2007}) in payment of the currently unpaid work of Ian Jinkerson, be added
to the reparations listed in the Civil Petition Summary within the aforementioned August 24,
2020 AmendmentfsT

Page 35 of 37

Austin v. California

Monday, June 14, 2021

Appendix D
Evidentiary support of my original innocence, against my original allegations of my domestic
violence restraining order decree, the RO extension, and the legalized plunder of my property, all
of which hereby propounds the foundation for de facto divorce as claimed herein.
(Renamed herein as Appendix D, from District Case 3-20-cv-00900-CRB, Document 3 l-l)32

32 In the effort of IFP cost constraint and saving paper, please access PACER files to view.
Page 36 of 37

Austin v. California

Monday, June 14, 2021

Appendix E
Recap of the original incident, republished from District Case 3-20-cv-00900-CRB, Document
31, Amendments Regarding Document 22, Order Dismissing Petition With Lease To Amend,
Pages 7-10.33

33 In the effort of IFP cost constraint and saving paper, please access PACER files to view.
Page 37 of 37

